NO. 19-678

In the
Supreme Court of the United States
UNITED STATES OF AMERICA, EX REL.
LAURENCE SCHNEIDER, ET AL.
AND LAURENCE SCHNEIDER,

Petitioners,
v.

JPMORGAN CHASE BANK,
NATIONAL ASSOCIATION, ET AL.,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the D.C. Circuit
REPLY BRIEF OF PETITIONERS

JOSEPH A. BLACK
DANIEL E. COHEN
THE CULLEN LAW FIRM, PLLC
JENNIFER MARTIN FOSTER
FOSTER, WALKER & DI MARCO, P.C. 110 30TH STREET NW
SUITE 300
350 MAIN STREET
WASHINGTON, DC 20007
MALDEN, MA 02148
(202) 298-4761
(781) 322-3700
JAB@CULLENLAW.COM
RDIMARCO@FWD-LAW.COM
ROBERTO L. DIMARCO

COUNSEL OF RECORD

COUNSEL FOR PETITIONERS

MARCH 12, 2020
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ....................................... ii
REPLY BRIEF OF PETITIONER ............................. 1
I.

DESPITE THE INSISTENCE OF THE RESPONDENTS THAT THE CIRCUIT SPLIT HAS NO REAL
IMPACT, THE SPLIT IS NOT SIMPLY ACADEMIC. .... 1

II. SINCE

MERITS OF SCHNEIDER’S ARGUMENT THAT THE GOVERNMENT’S MOTION TO
DISMISS IS ARBITRARY AND CAPRICIOUS
HAVE NOT BEEN ADDRESSED BY THE LOWER
COURTS, IT WOULD NOT BE APPROPRIATE TO
DO SO AT THE PETITION STAGE. .......................... 4
THE

III. WHERE THE FCA ASKS PRIVATE CITIZENS TO
ENTER INTO ENFORCEMENT ACTIONS IN AID
OF THE GOVERNMENT, THE COURT MUST
PROTECT SUCH RELATORS TO AVOID A
CHILLING EFFECT THAT UNDERMINES THE
OBJECTIVES OF THE STATUTE. ........................... 6
CONCLUSION.......................................................... 10

ii
TABLE OF AUTHORITIES
Page
CASES

Holmes v. Securities Investor Protection Corp.,

503 U.S. 258 (1992) .............................................. 3

Husky Intern. Electronics, Inc. v. Ritz.,

136 S.Ct. 1581 (2016) ........................................... 3

In re Murchison,

349 U.S. 133, 75 S.Ct. 623,
99 L.Ed. 942 (1955) ............................................. 8

Jones v. Harris Associates, LLP,

559 U.S. 335 (2010) .............................................. 3

Mims v. Arrow Financial Services, LLC,

565 U.S. 368 (2012) ............................................. 3

Rubin v. Islamic Republic of Iran,

138 S.Ct. 8169 (2018) .......................................... 3

Salazar v. Ramah Navajo Chapter,

567 U.S. 182 (2012) ............................................. 3

Schuster v. City of New York,

5 N.Y.2d 75 (1958) ............................................... 9

United States ex rel. Sequoia Orange Co.
v. Baird-Neece Packing Corp.,

151 F.3d 1139 (9th Cir. 1998),
cert. denied, 525 U.S. 1067 (1999) ........................ 1

Vartelas v. Holder,

566 U.S. 257 (2012) ............................................. 3

STATUTES
31 U.S.C. § 3730(c)(2)(A) ...................................passim

1

REPLY BRIEF OF PETITIONER
This Petition presents an important question
regarding the proper role of courts in reviewing the
actions of the Executive Branch and the Government
in dismissing relators’ claims under 31 U.S.C. § 3730(c)
(2)(A) and, within that role, the proper standard to
apply. That role is central to the False Claims Act and,
at its heart, asks whether citizens who seek to aid in
the enforcement of the law are to be protected and
encouraged in such a role or chilled and urged to stay
silent.
I.

DESPITE THE INSISTENCE OF THE RESPONDENTS
THAT THE CIRCUIT SPLIT HAS NO REAL IMPACT,
THE SPLIT IS NOT SIMPLY ACADEMIC.

Nowhere in the filings of the Government or
JPMorgan Chase Bank (“Chase”) do the parties dispute
that a split exists between the Circuits. As specifically
referenced in the Per Curiam Order of the Court of
Appeals for the District of Columbia, issued August
22, 2019 (App.1a.), the Court references the split and
“decline[s] to adopt the standard of the Ninth Circuit
under which the Government must initially show
that dismissal is rationally related to a valid purpose
. . . ” citing United States ex rel. Sequoia Orange Co. v.
Baird-Neece Packing Corp., 151 F.3d 1139, 1145 (9th
Cir. 1998)). (App.2a). Left with no choice, the Respondents agree the split exists (Gov.Opp.8 and Chase.Opp.6)
but attempt to minimize its impact and call it “academic” (Chase.Opp.1). Yet this attempt to diminish the
split with a dismissive comment does not eliminate the
split in the law, nor lessen its extent. This split in

2
the circuits has clearly been called out in other decisions from district courts around the nation as cited
in Petitioner’s brief and should be addressed.
More troubling than the existence of a split, the
Government appears reluctant to have the law made
whole and the split remedied. The Government seeks
to ignore the split, downplay it and argue that no
effective difference exists between the standards set
by the DC Circuit (“DC Standard ”) and the 9th and
10th Circuits (“ 9th Standard ”). The reason Chase
argues that this matter not to be heard is obvious.
Chase wishes to escape any true assessment of its
behavior and hide its malfeasance. But the Government’s rationale is more difficult to ascertain. While
the Government states that multiple courts have
declined to choose between the competing standards,
the Government also cites to the Third Circuit’s recent
statement that the 9th Standard is “the more restrictive standard” (Gov.Opp.16). The Government even
reluctantly acknowledges that such a difference could
be “outcome determinative” (Gov.Opp.16). The Government cites to various cases to argue that the split
had no impact. Then the Government does something
more curious, it dismisses the cases are different and
infers that the difference was not the reason for the
denial of the dismissal. The Government argues that
the two cases using the 9th Standard to deny the
dismissal “reflect misapplications of Section 3730(c)(2)
(A) even under the Sequoia Orange standard” (Gov.Opp.
17). This wordplay indicates the Government’s acknowledgement that the difference is real and impactful, but
it leaves an impression that the Government seeks
a different route to its objective of unfettered and
unreviewable power. The Government appears to be

3
trying to whittle down the more restrictive standard
to reduce judicial review through other means that
are less absolute than a head on resolution of the
split by this Court.
The Government and Chase cite cases in which
they claim that the end result would be the same, a
quasi-outcome determinative argument. They argue
that nothing has happened so far that needs this
Court’s attention, so let the split remain. The problem
is that this is not true.
Allowing the current split would permit the Government to whittle down the more restrictive standard
to the point where the Executive Branch acts without
question. The Government seeks to interpret the
language of the 9th Standard itself, taking for the
Executive Branch the role of the courts. Such a
method of arriving at their final objective must not
be allowed. This variance in the law should be remedied
by this Court. A split between the circuits is frequently
cited as reason for granting of a petition. Holmes v.
Securities Investor Protection Corp., 503 U.S. 258, 286
(1992); Vartelas v. Holder, 566 U.S. 257, 265 (2012);
Husky Intern. Electronics, Inc. v. Ritz., 136 S.Ct. 1581,
1585 (2016); Jones v. Harris Associates, LLP, 559 U.S.
335, 343 (2010); Rubin v. Islamic Republic of Iran,
138 S.Ct. 8169, 821 (2018); Mims v. Arrow Financial
Services, LLC, 565 U.S. 368, 376 (2012); Salazar v.
Ramah Navajo Chapter, 567 U.S. 182, 188 (2012).
Further, the split leaves the law unclear and FCA
whistleblowers chilled by the prospect of no recourse
for their sacrifice. The split forces the Government
and Relators in different parts of the nation to face
different standards of review following Section 3730(c)
(2)(A) dismissals. DC Circuit U.S. Attorneys are able

4
to act without oversight of the courts, dismissing
with no concern for whether they will be challenged
or whether they may have even erred, an error that
will never matter. U.S. Attorneys in the 9th and 10th
Circuits are held to a more restrictive standard and
must actually perform the investigations and reviews
necessary to justify dismissing cases brought forward
by public actors. The Government’s (and Chase’s)
dependence on a determinative argument to avoid
review, only to allow for attrition to act on the issue
is not the proper way of addressing a split in the
Circuits, a split that is more than academic.
II.

SINCE THE MERITS OF SCHNEIDER’S ARGUMENT
THAT THE GOVERNMENT’S MOTION TO DISMISS IS
ARBITRARY AND CAPRICIOUS HAVE NOT BEEN
ADDRESSED BY THE LOWER COURTS, IT WOULD NOT
BE APPROPRIATE TO DO SO AT THE PETITION STAGE.

This split and its harm to predictability in our
laws is not where the Government, and Chase, choose
to focus their attention in their oppositions. While it
is completely understandable and self-serving for
Chase to do so, the Government aids the Defendants
in their objective of hiding their malfeasance. The
two Respondents artificially minimize the effect of the
split while redirecting this Court’s attention toward
an unjustified attack on the merits of the Petitioner’s
case. The Respondents’ merits argument is wholly
unsupported. Since the lower courts conducted no
review of Schneider’s demonstration that the Government’s motion to dismiss was arbitrary and capricious,
it is inappropriate and unjust to address the merits
for the very first time in a Petition for Certiorari
Review. No facts were tested by the lower courts. There
was only a complaint and an attempted amendment.

5
Further aggravating this tactic is that such a test
of the merits would have been simple at the lower court,
with little to no risk to the Government, and with the
potential for a great return for the taxpayers. The
present case’s companion case brought in the Southern
District of New York presents a unique opportunity.
That companion case has had extensive factual discovery, including extraordinarily telling depositions of
one of the main actors in the FCA case, the National
Mortgage Settlement Monitor. Such discovery clearly
and appreciably reduces the claimed risk to the Government. Yet the Government has made no effort to
investigate or review documentation from the companion case. Indeed, it appears that the Government even
failed to present the Petitioner’s case to auditors and
other investigators during its many extensions of the
FCA seal periods. If, as has been claimed, an investigation was done into the case, why would such easily
accessible discovery go completely unreviewed. Instead,
now the Government attempts to bootstrap on this
failure to argue merits that it never investigated.
Both Respondents seek to redirect attention
towards claimed factual issues in the underlying case.
This misdirection misses the point of the Petitioner’s
claim, intentionally so. But should a test be made; the
Petitioner would pass. As but one example, the Government argues that “petitioner ‘d[id] not allege that
Chase received HAMP incentive payments on’ any of
the loans that were the subject of his claims”. (Gov.
Opp.18). What the Government does not admit is that
Chase issued blatantly contrary certifications to the
Government that were false on their face, false as a
matter of law, and that Chase did not have an explanation for such a flagrant lie. In fact, when such infor-

6
mation was made available at the Section 3730(c)
(2)(A) dismissal hearing, the lower court’s response
was that it lacked discretion to make any other finding.
(App.3a). But this Court is not the forum to test the
point by point merits of the Petitioner’s case. As stated,
if called to do so, the Petitioner could easily address
each claim, but the DC Standard makes such a practice
not only impossible, but its denial unreviewable.
The Government argues that its dismissal was
“rational” (Gov.Opp.18) and that there was nothing
arbitrary in its decision. In truth, the very fact that
the Petitioner’s case was subjected to a Section 3730
(c)(2)(A) dismissal without review of any of the readily
available information is the essence of arbitrariness.
The Government’s wholly unsupported argument that
it would be dealing with “large amounts of discovery”
is countered by the fact that it failed to ever ask for
any discovery while supposedly investigating the claim.
(Gov.Opp.18). To now make a merit-based argument
after failing to examine the merits, is to strip any
semblance that the process was not arbitrary.
III. WHERE THE FCA ASKS PRIVATE CITIZENS TO ENTER
INTO ENFORCEMENT ACTIONS IN AID OF THE
GOVERNMENT, THE COURT MUST PROTECT SUCH
RELATORS TO AVOID A CHILLING EFFECT THAT
UNDERMINES THE OBJECTIVES OF THE STATUTE.
The Respondents have this Court leave the DC
Standard in place and relegate the presiding judge of

a dismissal hearing to the position of a spectator,
albeit one with the best seat in the house. They
would reduce the judicial role and power of the
judiciary to that of a casual observer. The DC Standard
forces the court to act as the preverbal potted plant.

7
But the Judiciary is not subordinate to the Executive
Branch. It is a foundational element of our laws that
the co-equal branches each play a role in our legal
framework, and the judiciary’s role is not one of a
bystander. By applying the DC Standard, the only
review allowed, according to what the Government
stated at the hearing, would be for a fraud on the court
(App.25a). Such a standard allows a litany of abuses
and errors of executive power to occur without review,
all aimed at citizens who did nothing more than step
into the shoes of the Government and assume all of
the risk to prevent fraud on taxpayers. Meanwhile, on
the other side of the bench, the Government sits
beside the alleged fraudulent actor, an unnatural
alliance created by an unreachable standard. Limiting
the judge’s involvement to fraud on the court leaves
the defendant free to act fraudulently without fear,
so long as they can threaten the Executive Branch
with additional work. Yet, even if this current matter
were examined through the lens of a cost benefit
analysis, the potential return to the taxpayers is far
greater than the cost of allowing the Relator to move
forward in his attempts to hold Chase accountable,
especially since the Relator is bearing the majority of
the costs.
Contrary to the Government’s argument (Gov.
Opp.12) that “[t]he hearing that Section 3730(c)(2)(A)
mandates serves useful functions even if the court
cannot review the substantive reasonableness of the
government’s dismissal decision,” public confidence is
eroded by a hearing that serves no purpose other than
to allow the Government to publicly punish a whistleblower for attempting to hold corporations accountable
while being cheered on by the accused fraudulent

8
actor. “To perform its high function in the best way
‘justice must satisfy the appearance of justice.’” In re
Murchison, 349 U.S. 133, 136, 75 S.Ct. 623, 625, 99
L.Ed. 942 (1955). Here, there is no appearance of
justice, not even a small one. The balance against
being attacked by the Government, the very party
the Relator sought to help, can only be determined
with the aid of the judge. The False Claims Act
makes a request on the public to come forward and
aid the Government in combatting fraud. For a relator
to have entered into the legal fray with an eye toward
bringing malfeasance to light and to find no unbiased
seeker of truth prepared to test the case’s merit, is
to abandon the very idea that our courts have an
appearance of justice.
This type of public chastisement without the protections of an unbiased judiciary chills the involvement
of the public in upholding the laws of the United States.
Instead of engendering public involvement, it provides
a disturbing image for the prospective whistleblower:
Offenders punishing whistleblowers with unending
litigation costs which only come to an end when the
Government aides those perpetrators with a dismissal
untested by an independent judiciary. To argue that
such an image is “increasing public confidence” would
be laughable if it was not so troubling. The singular
recourse of a relator is to seek the protection of an
unbiased judge, a protection denied to him when all
powers only aid the defendants.
Such a limitation of the judiciary in favor of the
executive is a misapplication of the law. It would be
harsh enough to leave an individual to the whims of
fate after they rose to the occasion and sought to aid
the Government in its enforcement. Schuster v. City

9

of New York, 5 N.Y.2d 75, 81 (1958) (“The duty of
everyone to aid in the enforcement of the law, which
is as old as history, begets an answering duty on the
part of government, under the circumstances of contemporary life, reasonably to protect those who have come
to its assistance in this manner.”) While the Government does have absolute discretion not to prosecute
criminal and most civil cases, that discretion in this
instance is circumscribed by the existence of the
FCA, which gives the public a role in combatting fraud
against the Government. The FCA asks the public
to take a direct part in enforcing our laws, it is an
invitation, and the public, as an invitee, is owed the
minimum of a right to be judged by an unbiased party.
In such an instance, the public actor, the relator,
trusts that the risk in voluntarily entering into an
enforcement action will not harm him but will help
the greater good. The judge’s role must be to ensure
that the public actor is protected for his sacrifice and
not simply dismissed out of hand without recourse to
the courts.

10

CONCLUSION
For the foregoing reasons, as well as those contained in the Petition for Certiorari, the Petition should
be granted.
Respectfully submitted,
ROBERTO L. DIMARCO

COUNSEL OF RECORD

JENNIFER MARTIN FOSTER
FOSTER, WALKER & DI MARCO, P.C.
350 MAIN STREET
MALDEN, MA 02148
(781) 322-3700
RDIMARCO@FWD-LAW.COM
JOSEPH A. BLACK
DANIEL E. COHEN
THE CULLEN LAW FIRM, PLLC
110 30TH STREET NW
SUITE 300
WASHINGTON, DC 20007
(202) 298-4761
JAB@CULLENLAW.COM

COUNSEL FOR PETITIONERS
MARCH 12, 2020

